<html>
<title> - MEMBER DAY HEARING</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                           MEMBER DAY HEARING

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2021

                               __________

       Printed for the use of the Committee on Financial Services
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      

                           Serial No. 117-18
                           
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-666 PDF                  WASHINGTON : 2021                     
          
-------------------------------------------------------------------------------------                           
                         

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            STEVE STIVERS, Ohio
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 27, 2021...............................................     1
Appendix:
    April 27, 2021...............................................     5

                               WITNESSES
                        Tuesday, April 27, 2021

Moore, Hon. Gwen, a Representative in Congress from the State of 
  Wisconsin......................................................     2

                                APPENDIX

Prepared statements:
    Cohen, Hon. Steve, a Representative in Congress from the 
      State of Tennessee.........................................     6
    McGovern, Hon. James P., a Representative in Congress from 
      the State of Massachusetts.................................     8
    Moore, Hon. Gwen, a Representative in Congress from the State 
      of Wisconsin...............................................    12

 
                           MEMBER DAY HEARING

                              ----------                              


                        Tuesday, April 27, 2021

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 12:03 p.m., via 
Webex, Hon. Maxine Waters [chairwoman of the committee] 
presiding.
    Members present: Representatives Waters, Himes, Axne, 
Lynch, Garcia of Texas, Williams of Georgia; and McHenry.
    Chairwoman Waters. Thank you very much. The Committee on 
Financial Services will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    As a reminder, I ask all Members to keep themselves muted 
when they are not being recognized by the Chair. The staff has 
been instructed not to mute Members except when a Member is not 
being recognized by the Chair and there is inadvertent 
background noise. Members are also reminded that they may only 
participate in one remote proceeding at a time. If you are 
participating today, please keep your camera on, and if you 
choose to attend a different remote proceeding, please turn 
your camera off.
    I will now recognize myself for 5 minutes to give an 
opening statement.
    Today, the committee will hear from Members of the House on 
matters of interest to them, pursuant to Section 3(a) of House 
Resolution 8, which requires each standing committee to hold a 
hearing at which it receives testimony from Members, Delegates, 
and Resident Commissioners on proposed legislation within its 
jurisdiction. The committee welcomes Members to discuss their 
priorities for this Congress.
    I will now recognize the ranking member of the committee, 
the gentleman from North Carolina, Mr. McHenry, for 5 minutes.
    Mr. McHenry. Thank you, Madam Chairwoman, and I am grateful 
for the opportunity to hear from a wide array of our Members of 
Congress, and the feedback for the committee, I think, will be 
quite helpful and constructive. I know, in particular, 
Congresswoman Moore is a strong advocate for native 
populations, and we are very interested to hear her testimony 
on NAHASDA and the reforms we need to make. So thank you, Madam 
Chairwoman. Thank you for holding this hearing. And I think it 
is good for our committee to hear from a wide array of Members, 
not just those who are seated on our committee, and that is why 
Members Day is such a nice and important thing.
    So with that, I yield back.
    Chairwoman Waters. I want to thank all of the Members for 
coming to us today to share their perspective with the 
committee. You are all most welcome, and you will each have 5 
minutes.
    We will first hear from the gentlewoman from Wisconsin, a 
former member of the committee, Ms. Moore. Ms. Moore, you are 
recognized for 5 minutes.

  STATEMENT OF THE HONORABLE GWEN MOORE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Moore. Thank you so much, Chairwoman Waters and Ranking 
Member McHenry, for the opportunity to come and testify today 
before the House Committee on Financial Services. It is very 
much a homecoming for me, as I served on this committee for 14 
wonderful years, and I still have not lost my passion for 
housing, and insurance, and all of the things that we have 
done. We had a lot of late nights, a lot of locking horns, but 
also a lot of bipartisanship, and good memories, and good 
friends, and maybe just a little bit of PTSD from the financial 
crisis. But I tell people, Madam Chairwoman, that I have a 
graduate degree from the finest financial markets program in 
the country, the University of Maxine Waters and Barney Frank.
    When I served, I worked on many of these issues: insurance; 
derivatives; State and local finance; international issues; 
consumer protection; export trade financing; Federal Reserve 
oversight; low-income housing; and, yes, Mr. McHenry, native 
housing. And I sleep well knowing that those legacy issues are 
in wonderful hands with not only great Democratic champions, 
but also bipartisan partners to work with. And I sleep well 
knowing that we have a dream team in the Administration with 
Secretary Fudge at HUD and Secretary Yellen at Treasury. And I 
know that this committee will have a robust examination of GSE 
reform, the Housing Trust Fund, affordable housing initiatives, 
and other important issues.
    Madam Chairwoman, today I want to focus my testimony on 
housing, specifically native housing and the Native American 
Housing and Self Determination Act (NAHASDA). In recognition of 
both tribal sovereignty and the trust obligations to native 
people, under the United States Constitution, this very 
committee created NAHASDA in 1996 to provide tribes with block 
grants for low-income housing programs in Indian Country. And I 
began working on this legislation in 2012 with a wonderful 
bipartisan coalition, and it passed the House twice, in 2012 
and 2015, only to--guess what happened--stall in the Senate 
both times. They say the third time is the charm. 
Reauthorization of NAHASDA is way overdue, so please let me 
urge the members of this committee to listen to our brothers 
and sisters in the first nations and take up this important 
legislation.
    We are all very familiar with the broader crisis of 
affordable housing throughout much of the United States, in 
rural areas, in urban areas, but the dearth of decent, 
affordable housing in Indian Country is really most acute. And 
if you have any doubts about this need, you can read the 2014 
GAO report, ``Native Housing: Additional Actions Needed to 
Better Support Tribal Efforts,'' for yourself, as some of the 
obstacles and conditions faced by native people are nothing 
short of appalling. And my plea is that we all put aside 
partisanship and take our cues from Indian Country on how to 
enhance and improve NAHASDA for the benefit of the 574 
federally-recognized tribes.
    I just want to give some closing thoughts because I am 
chastened by the gavel. First, Native Americans are a political 
class under the law and not an ethnic identity. Second, native 
Hawaiians are a conquered indigenous people and are properly 
recognized under NAHASDA, which has, of course, been one of the 
sticking points.
    And third, we have had an ongoing issue around the five so-
called civilized tribes who once held slaves, and one of those 
tribes was the Cherokee Tribe. If we are going to address the 
issue of native freedmen in NAHASDA, I pray that we do it in a 
way that is responsive to the issue, realizing that the courts 
have sided with the freedmen, and the Cherokee are implementing 
steps towards recognizing those freedmen, and that we do that 
while we respect the trust obligation we all have to tribal 
nations.
    I just want to thank you for hearing me out. I am 
available, Madam Chairwoman, for any questions that the 
committee may have.
    [The prepared statement of Representative Moore can be 
found on page 12 of the appendix.]
    Chairwoman Waters. Thank you very much, Congresswoman. I do 
appreciate your presence here today, and thank you for coming 
and sharing your thoughts with us.
    Ms. Moore. Thank you, Madam Chairwoman.
    Chairwoman Waters. You are so welcome. Thank you. So do we 
have any other Members who are prepared to give testimony on 
their concerns?
    [No response.]
    If we have no further Members who are expected to testify, 
then we will simply ask if any of the Members have any 
questions for our witness. Is Ms. Moore still on the platform?
    [No response.]
    If there are no further questions, and no further Members 
seeking to testify, I would like to thank the Member who has 
appeared before the committee for their testimony today, and 
that is Ms. Moore.
    Without objection, all Members will have 5 legislative days 
within which to submit extraneous materials to the Chair for 
inclusion in the record.
    Ladies and gentlemen, this hearing is adjourned. Thank you.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]

                            A P P E N D I X


                            April 27, 2021
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
